Appendix A

1

9th Circuit Ruling (ECF Dkt. 12)
FILED AUG 1 2019 MOLLY C.
DWYER, CLERK U.S. COURT
OF APPEALS Case: 19-15756

Before: SCHROEDER, CANBY, and CHRISTEN,
Circuit Judges.
A review of the record and the opening brief
indicates that the questions raised in this appeal are
so insubstantial as not to require further argument.
See United States v. Hooton, 693 F.2d 857, 858 (9th
Cir. 1982) (stating standard). Accordingly, we grant
appellee's motion for summary affirmance (Docket
Entry No. 5).
Appellant's motions for appointment of
counsel and for a declaratory judgment and
injunctive relief (Docket Entry Nos. 2, 7) are denied
as moot.
Appellee's motion for sanctions (Docket Entry No. 6)
is denied.
AFFIRMED.
9th Circuit Ruling (ECF Dkt. 14) 10/10/2019
Appellant's motion for reconsideration (Docket
Entry No. 13) is denied. See 9th Cir. R. 27-10.
No further filings will be entertained in this closed
case.

Appendix B

2-a

District Court Rulings:
(1.) District court amended ruling (Complete in
verbatim. No. C 11-02076 WHA; ECF Doc. 94)
ORDER RE MOTIONS FOR RECONSIDERATION, SUMMARY
JUDGMENT, TRANSFER OF JURISDICTION, SANCTIONS,
AND To DECLARE PLAINTIFF A VEXATIOUS LITIGANT
INTRODUCTION
This order arises from a putative class action
dismissed in August 2011. Pro se plaintiff moves for
reconsideration of a prior order and defendant moves
to declare plaintiff a vexatious litigant. For the
reasons explained below, all motions are DENIED.
STATEMENT
The background of this action is set forth in prior
orders (Dkt. Nos. 35, 69). In brief, plaintiff Darru K.
"Ken" Hsu entered into a wrap agreement with
defendant UBS Financial Services, Inc. for
investment and advisory services. Prior to this
federal action, Hsu, proceeding with counsel, filed a
claim with the Financial Industry Regulatory
Authority. After the arbitration panel dismissed all
claims over which it had jurisdiction, Hsu
commenced this action under the Investment
Advisers Act, alleging that defendant provided
services "in its capacity as an investment advisor,"
but that a "hedge clause" in his agreement with
defendant impermissibly required Hsu to waive
certain rights under the Act (see Dkt. No. 17).
An August 2011 order dismissed Hsu's first amended
complaint for failure to state a claim. Although the
dismissal order permitted Hsu an opportunity to
propose a second amended complaint, Hsu did not
amend and judgment was entered in favor of

Appendix B

2-b

defendant. Shortly thereafter, Hsu appealed. During
the appeal process, Hsu terminated counsel and has
since proceeded pro se. In February 2013, our court
of appeals affirmed the dismissal for failure to state
a claim, and later denied an en banc hearing. The
Supreme Court denied a petition for a writ of
certiorari in October 2013 (Dkt. Nos. 35, 41, 49 50,
54).
In 2014, again proceeding pro se, Hsu moved to set
aside the judgment pursuant to FRCP 60(b)(6) and
FRCP 60(d)(3). The essence of Hsu's motion was that
defendant had committed fraud on the court by
falsifying two documents that it proffered for judicial
notice on June 3, 2011: (1) a signed agreement
between Hsu and Horizon, independent of the wrap
contract, and (2) the FINRA arbitration panel ruling.
A March 2014 order denied Hsu's motion, finding
that there was no evidence that the August 2011
dismissal order was undermined by the June 3
documents, nor was there evidence that the
dismissal order restricted Hsu's access to proper
judicial review. Specifically with respect to plaintiffs
claim of falsification, the 2014 order found that
plaintiff had failed to clearly and convincingly
demonstrate fraud on the court under FRCP 60(d)(3)
because, among other things, the 2011 dismissal
order did not rely on either document in dismissing
Hsu's complaint. Our court of appeals affirmed the
denial of the motion, and the Supreme Court denied
a petition for writ of certiorari (Dkt. Nos. 57, 69, 74
79).
In February 2018, Hsu again moved to set aside the
judgment, this time pursuant to FRCP 60(b)(4), but
primarily based on the same argument that
defendant falsified documents submitted in

Appendix B

2-c

connection with its motion to dismiss and that the
2011 dismissal order had improperly relied on these
materials without converting the motion to dismiss
into a motion for summary judgment. Defendant, in
turn, moved to have Hsu declared a vexatious
litigant. An April 2018 order denied both motions,
finding that Hsu had failed to establish that relief
from judgment was warranted and that the record
failed to demonstrate that Hsu was vexatious
litigant (Dkt. Nos. 80 81, 87).
Hsu now brings a motion for reconsideration of the
April 2018 order, rearguing the same arguments he
raised in his motion to set aside the judgment
pursuant to FRCP 60(b)(4). He also moves to .
"transfer jurisdiction" and to disqualify the
undersigned judge. Defendant again moves to
declare Hsu a vexatious litigant (Dkt. Nos. 89 92).
This order follows full briefing and oral argument.
ANALYSIS
1. MOTION FOR RECONSIDERATION.
This order treats Hsu's motion for "reconsideration
and summary judgment" as a motion for
reconsideration. Hsu's motion merely repeats
arguments that have already been rejected in prior
orders, namely that (1) the Court lacked subjectmatter jurisdiction over the complaint, (2) defendant
falsified two documents submitted in connection with
its motion to dismiss, and (3) the 2011 dismissal
order relied on these falsified materials and
improperly failed to convert defendant's FRCP
12(b)(6) motion into a motion for summary judgment.
Because Hsu merely repeats arguments previously
rejected and fails to show "an intervening change of
controlling law, the availability of new evidence, or

Appendix B

2-d

the need to correct a clear error or prevent manifest
injustice," Pyramid Lake Paiute Tribe of Indians v.
Hodel, 882 F.2d 364, 369 n.5 (9th Cir. 1989), the
motion for reconsideration is DENIED.
MOTION TO DISQUALIFY.
Under Section 455 of Title 28 of the United States
Code, a judge must disqualify himself "in any
proceeding in which his impartiality might
reasonably be questioned," or, among other
circumstances, where he has a "personal bias or
prejudice concerning a party, or personal knowledge
of disputed evidentiary facts concerning the
proceeding." The applicable standard is whether "a
reasonable person with knowledge of all the facts
would conclude that the judge's impartiality might
reasonably be questioned." Yagman v. Republic Ins.,
987 F.2d 622, 626 (9th Cir. 1993) (citation omitted).
Hsu fails to provide any basis on which a reasonable
person would conclude that the undersigned's
impartiality might reasonably be questioned or
otherwise indicate any bias or prejudice. The motion
to disqualify is DENIED.
MOTION TO TRANSFER.
Hsu next seeks to "transfer jurisdiction," although it
is unclear to which court he would like this action to
be transferred. Because Hsu fails to provide an
appropriate basis to transfer this closed action, the
motion is DENIED.
MOTION TO DECLARE PLAINTIFF A
VEXATIOUS LITIGANT.
This is defendant's second request to declare Hsu a
vexatious litigant. The April 2018 order denied
defendant's first request on the ground that the
record failed to demonstrate that Hsu's motions were

Appendix B

2-e

so numerous and abusive so as to require a pre-filing
order. The April 2018 warned Hsu, however, "that he
ha[d] no right to file frivolous and harassing motions,
and that doing so violates FRCP 11." The order also
warned Hsu that if he "continue[d] with
unmeritorious litigation, he [would] soon be declared
a vexatious litigant."
Since that time, nearly a year has passed and the
only motions filed by Hsu are those addressed herein.
Although Hsu's latest filing is certainly duplicative
and repetitive, this order cannot conclude that Hsu's
conduct has been sufficiently abusive to warrant a
pre-filing order. This, however, will be Hsu's final
warning. Should he file any new filings that are
duplicative of those that have already been
definitively resolved in this case, he will be declared
a vexatious litigant and will be required to submit
for pre-filing review any pro se papers filed in this
district against or having to do with defendant or
any of its current or former employees.1
CONCLUSION
Based on the foregoing, Hsu's motion for
reconsideration, to transfer, and to disqualify, as well
as his request for sanctions against defense counsel,
are DENIED. Defendant's motion to declare Hsu a
vexatious litigant is also DENIED.
IT IS SO ORDERED.
Dated: March 21, 2019.
WILLIAM ALAUP
UNITED STATES DISTRICT JUDGE

1 In opposing defendant's motion to declare him a vexatious litigant, Hsu

moves for sanctions against defense counsel. The request for sanctions in
unmeritorious and is DENIED.

3

Appendix B

(2.) Transcript of Proceedings (ECF Doc. 100)
Thursday - March 21, 2019

8:06 a.m.

PROCEEDINGS
---000--THE CLERK: Calling Civil Action 11-2076, Hsu
versus UBS Financial Services, Inc.
Counsel and plaintiff, please step forward and state
your appearances for the record.
MR. McGUIRK: Good morning, Your Honor.
THE COURT: Good morning.
MR. HSU: Good morning, Your Honor.
THE COURT: Please make your appearances.
MR. McGUIRK: Justin McGuirk. I'm with the law
firm Reed Smith representing defendant UBS
Financial Services, Incorporated.
THE COURT: Thank you. And you're Mr. Hsu?
MR. HSU: Yes.
THE COURT: All right.
MR. HSU: Nice to see you again.
THE COURT: Good to see you. Please go ahead. I've
read your materials, but you may summarize your
argument, Mr. Hsu.
MR. HSU: The key of this is about using the fake
document, legal document for the defense.
THE COURT: I know you say that and I know I've
dealt with that issue before, but do you have the
forged document right there?
MR. HSU: Yes.

Appendix B

4

THE COURT: All right. Please hand that up. Show
counsel first. (Document was shown to the counsel.)
THE COURT: And then let me see the forged
document.
MR. HSU: I didn't have it last time. This is the -- in
Your Honor's ruling was the -THE COURT: All right. Look. This is getting too
complicated. Just hand it to me. The record won't be
clear. (Whereupon document was tendered to the
Court.)
THE COURT: What has been handed to me -MR. HSU: The top is what is in the Court record.
And the clearly printed copy is from the copy which I
signed, my wife and I signed, because there are two
accounts.
THE COURT: What was forged here?
MR. HSU: What's forged is the purpose of this
document. If you look at the fax transmittal toward
the end of the page, okay, that is from UBS to HIC,
which I highlighted there and that is for the account
opening authorization. Because that is, in fact,
required by FINRA for discretionary accounts.
It's required, for example, for some elderly who needs
to have a third party who care for the account with
authorizations, and FINRA requires that direct
authorization. That was the signature for that
purpose.
THE COURT: Wait. First of all, a large part of this is
impossible to read because it's such a poor copy.
MR. HSU: The copy, the clear legible copy is the
actual copy.

Appendix B
THE COURT: I want you to tell me in this document
which is the forged signature? That's what you have
been saying.
MR. HSU: It's the forged purpose.
THE COURT: Forged purpose?
MR. HSU: Purpose, yes. For the submission for the
Motion to Dismiss.
THE COURT: So I -- I guess I misunderstood.
MR. HSU: Okay.
THE COURT: I thought you were trying to say that
there had been falsified documents in the case.
MR. HSU: Falsified documents for this purpose,
intended purpose.
THE COURT: Mr. Hsu, you see here where it has
your signature? I guess it's your signature. Is that
you?
MR. HSU: Yes.
THE COURT: Are you saying that's forged?
MR. HSU: No, no. The signature is correct. The
purpose is for the FINRA authorization based upon
that rule, which is for the -- this -- the authorization
to open the discretionary account.
THE COURT: All right. Thank you. I'll let you say a
few more things and then I've got other cases out
there. What else would you like to say?
MR. HSU: After, Your Honor, this Court identified
the federal question of jurisdiction, point of that
question, I started to do the research, whether that
document is falsified for its purpose or not for the
federal question jurisdiction as a defense.

Appendix B

6

Investment Advisor Act does not -- does not allow
that as a defense. Just simple as that.
THE COURT: All right. What would you like to say?
MR. McGUIRK: I don't have much to add, other than
what was in the moving papers.
THE COURT: All right. Then the Motion for
Reconsideration is denied. Motion to Transfer
Jurisdiction is denied.
The Motion to Declare Plaintiff a Vexatious Litigant
is denied. However, you have had so many tries at
this, Mr. Hsu, that I probably should grant the
motion on vexatious litigant, but I'm not yet.
Your next step, if you want to pursue any of this, is
to go to the Court of Appeals. I'm going to ask the
Clerk to take these documents that you've handed
me and these will be marked as Plaintiff's Exhibit No.
1 for the purposes of the record.
Okay. The hearing is at an end. I'll get out a written
order, Mr. Hsu, probably tomorrow, that will explain
in more detail why your motions are denied.
MR. HSU: So Your Honor will explain that?
THE COURT: I will. I have a draft right here, but it's
not yet final.
MR. HSU: Okay.
THE COURT: I will get it out and you will have the
benefit of that order.
MR. HSU: Thank you.
THE COURT: Thank you. Have a good day.
MR. McGUIRK: Thank you, Your Honor.
(Proceedings adjourned.)

Appendix B

7

(3.) Exhibit-1 for the minute order (ECF Doc. 96)
tlioto litft MOO, WIC

6( Ca

Ott

Cattfitanbert
Doane:
, ..
Damittit,
0
a
Lodgva Dociantlitst .„ .
seated Doctuptiitir,
(7)., nocuratiamm
-•-•-•—•--'•••••••-1,!e!!%14101411;

Location:
Expand4) Fat (Nen 61Caterift)
fIveribIrtibt*
Vat&
Mier:

ilecoment tiumba:

Appendix B

Addendum:

Doc. 87 (1 of 6)

ORDER DENYING PLAINTIFF'S MOTION FOR
RELIEF FROM JUDGMENT AND DENYING
DEFENDANT'S MOTION TO DECLARE
PLAINTIFF A VEXATIOUS LITIGANT
INTRODUCTION
This order arises from a putative class action
dismissed in August 2011. Pro se plaintiff
moves to set aside the judgment in favor of
defendant on the ground that the judgment is void.
For the foregoing reasons, plaintiffs motion is
DENIED. Defendant's motion to declare plaintiff
a vexatious litigant is also DENIED.
STATEMENT
The background of this action is set forth in prior
orders (Dkt. Nos. 35, 69). In brief, in 2007 plaintiff
Darru K. "Ken" Hsu entered into a wrap agreement
with defendant UBS Financial Services, Inc. for
investment and advisory services. Hsu then chose
Horizon Asset Management as its investment
manager from a list that UBS had compiled.
Prior to this federal action, Hsu, proceeding with
counsel, filed a claim with the Financial Industry
Regulatory Authority. After the arbitration panel
dismissed all claims over which it had jurisdiction,
Hsu commenced this action against defendant under
the Investment Advisers Act. Hsu's complaint
alleged that defendant provided services "in its
capacity as an investment advisor," but that a "hedge
clause" in his agreement with defendant
impermissibly required Hsu to waive certain rights
under the Act (see Dkt. No. 17).
An August 2011 order dismissed Hsu's first amended
complaint for failure to state a claim. Although the

Appendix B

Addendum:

Doc. 87 (2 of 6)

dismissal order permitted Hsu an opportunity to
propose a second amended complaint, Hsu did not
amend and judgment was entered in favor of
defendant (Dkt. No. 35).
Shortly thereafter, Hsu appealed. During the appeal
process, Hsu terminated counsel and has since
proceeded pro se. In February 2013, our court of
appeals affirmed the dismissal for failure to state a
claim, and later denied an en banc hearing. The
Supreme Court denied a petition for a writ of
certiorari in October 2013 (Dkt. Nos. 41, 49-50, 54).
In 2014, again proceeding pro se, Hsu moved to set
aside the judgment pursuant to FRCP 60(b)(6) and
FRCP 60(d)(3). The essence of Hsu's motion was that
defendant had committed fraud on the court by
falsifying two documents that it proffered for judicial
notice on June 3, 2011: (1) a signed agreement
between Hsu and Horizon, independent of the wrap
contract, and (2) the FINRA arbitration panel ruling.
A March 2014 order denied Hsu's motion, finding
that there was no evidence that the August 2011
dismissal order was undermined by the June 3
documents, nor was there evidence that the
dismissal order restricted Hsu's access to proper
judicial review. Our court of appeals affirmed the
denial of the motion, and the Supreme Court denied
a petition for writ of certiorari (Dkt. Nos. 57, 69, 7479).
Through the instant motion, Hsu again moves to set
aside the judgment, this time pursuant to FRCP
60(b)(4). Defendant, in turn, moves to have Hsu
declared a vexatious litigant (Dkt. Nos. 80-81). This
order follows full briefing and oral argument.
ANALYSIS

Appendix B
1.

Addendum:

Doc. 87 (3 of 6)

MOTION TO SET ASIDE JUDGMENT.

FRCP 60(b)(4) allows federal COURTS to vacate
judgments which are "void." A final judgment is "void"
for purposes of FRCP 60(b)(4) "only in the rare
instance where a judgment is premised either on a
certain type of jurisdictional error or on a violation of
due process that deprives a party of notice or the
opportunity to be heard." United Student Aid Funds,
Inc. v. Espinosa, 559 U.S. 260, 271 (2010).2
Through the instant motion, Hsu maintains that his
complaint should not have been dismissed and
attacks the March 2014 order denying his motion to
set aside the judgment pursuant to FRCP 60(b)(6)
and 60(d)(3). Although difficult to understand, Hsu
sets forth three primary arguments as to why the
judgment is void.
First, Hsu argues that dismissing this action violated
his Seventh Amendment and due process rights. As
in his prior motion to set aside the judgment, Hsu
alleges that defendant falsified two documents
submitted in connection with its motion to dismiss —
the Horizon Agreement and the FINRA arbitration
panel ruling — and argues that the 2011 dismissal
order improperly relied on these materials. Hsu also
appears to contend that the dismissal order
improperly considered these materials without
converting defendant's FRCP 12(b)(6) motion into a
motion for summary judgment. As a result of this
additional failure, Hsu argues, he lacked standing
and the district court "lost Article III jurisdiction."
2 Although FRCP 60(c)(1) generally requires that motions under FRCP
60(b) be brought "within a reasonable time," there is no time limit on a
motion to set aside a judgment as void. Meadows v. Dominican Republic,
817 F.2d 517, 521 (9th Cir.1987).

Appendix B

Addendum:

Doc. 87 (4 of 6)

These contentions are incorrect. As explained in the
March 2014 order denying Hsu's first motion to set
aside the judgment, although defendant submitted a
request for judicial notice in connection with its
motion to dismiss, the dismissal order neither
explicitly noticed the documents nor relied on them
in dismissing the complaint. Moreover, Hsu wholly
fails to explain how this purported error relates to
Article III standing.
Second, Hsu contends that the dismissal order
violated his due process rights by "shift[ing] the
burden to plaintiff for proving the wrong in a repleading order." Not so. As also explained in the
March 2014 order, the dismissal order did not shift
any burden to Hsu that was not already there.
Third, Hsu contends that the dismissal order
"eliminated the regulatory compliance documents"
attached to the complaint and, as a result, the
district court lacked subject-matter jurisdiction
under the Investment Advisors Act. Hsu cites no
authority to support his claim that subject-matter
jurisdiction was lacking. Hsu filed his claims
pursuant to a federal statute and the district court
therefore had subject-matter jurisdiction pursuant to
28 U.S.C. § 1331.
For these reasons, Hsu has failed to establish that
relief from judgment is warranted. His motion to set
aside the judgment as void is accordingly DENIED.3

3 In his motion, Hsu also requests that (1) "the court [ 1 decide a

presiding judge and jury trial for this FRCP 60(b)(4) motion," (2) "the
court [ I exercise the criminal jurisdiction under Sec. 11 of the Judiciary
Act of 1789," and (3) defendant be ordered to produce various records
related to wrap agreements entered into with third parties. Because these
requests do not concern the district court's jurisdiction or its authority to

Appendix B

Addendum:

Doc. 87 (5 of 6)

2.
MOTION TO DECLARE PLAINTIFF A VEXATIOUS
LITIGANT.
A request to declare a party a vexatious litigant
entails consideration of four factors: (1) the party
must have had adequate notice and a chance to be
heard; (2) there must be an adequate record for
review, including a list of all cases and motions that
led the court to conclude that a vexatious litigant
order was necessary; (3) the court must make a
substantive finding as to the frivolous or harassing
nature of the litigant's actions; and (4) the order
must be narrowly tailored to fit the particular
problem involved. Molski v. Evergreen Dynasty Corp.,
500 F.3d 1047, 1057 (9th Cir. 2007). Under the third
factor, courts must examine "both the number and
content of the filings as indicia of the frivolousness of
the litigant's claims." Id. at 1059. An injunction
cannot issue merely upon a showing of litigiousness.
The plaintiffs claims must be both numerous and
patently without merit. Ibid.
Defendant moves to declare Hsu a vexatious litigant
based on his filings in this action and related
appellate proceedings. Defendant contends that Hsu
continues to file frivolous motions despite the fact
that final judgment has been entered against him
As examples, defendant cites miscellaneous motions
Hsu has filed in our court of appeals, such as a
complaint for judicial misconduct and a motion for
"manifest injustice."
While some of Hsu's filings are difficult to
comprehend and he has consistently sought final
appellate review of this Court's orders, the current
enter the judgment, these arguments are not cognizable in a FRCP
60(b)(4) motion and they are DENIED.

Appendix B

Addendum:

Doc. 87 (6 of 6)

record fails to demonstrate that these motions were
so numerous and abusive so as to require declaring
Hsu a vexatious litigant. Defendant's motion is
accordingly DENIED.
Hsu is warned, however, that he has no right to file
frivolous and harassing motions, and that doing so
violates FRCP 11. Hsu is further advised that FRCP
11 applies equally to attorneys and pro se litigants
alike. Warren v. Guelker, 29 F.3d 1386, 1390 (9th Cir.
1994). If Hsu continues with unmeritorious litigation,
he will soon be declared a vexatious litigant.
CONCLUSION
Based on the foregoing, Hsu's motion to set aside the
judgment is DENIED. Defendant's motion to declare
Hsu a vexatious litigant is also DENIED.
IT IS SO ORDERED.
Dated: April 6, 2018.

WILLIAM ALSUP

Appendix C

UBS

MAC Part-1

8

MICROFILM I.D. UBS Financial Services Inc.

Iwc

PLEASE FAX ORIGINAL FORMS
TO ICS AT 201-352-5969. DO NOT
MAIL TO NEW ACCOUNTS.
FULL ACCOUNT BRANCH ACCOUNT BROKER
SOCIAL
NUMBER

NAME
Darru K. Hsu

NUMBER
OA

33042

SECURITY/TAX NO
N8

[omitted]

And Gina T. Hsu
Living Trust

Managed Accounts Consulting
Wrap Fee Services Agreement (Client)
Account Type: Advisory
Please read the important disclosures entitle Conducting Business with UBS: Guide to Investment
Advisory and Broker Dealer Services contained below in the Managed Accounts Consulting Wrap Fee
Services Agreement for a summary of the main distinctions between investment advisory and brokerage services and our respective duties and obligations.
Our Obligations, Your Agreement and Your
Account/ Program Selection
Following this section, you will find your investment
advisory agreement. If you are establishing an investment advisory 'account with us (for example,
ACCESS, Managed Accounts Consulting Programs,
PACE, Strategic Advisor, UBS Strategic Wealth
Portfolios, Portfolio Management Program or
SELECTIONS), you will be required to execute both
an investment advisory agreement and a brokerage
account agreement, so that your advisor account will
have trading capability and custody services. When
you execute a brokerage agreement as part of the
process of establishing an investment advisory account, the brokerage agreement supplements your
advisory agreement, and all, collectively govern your

Appendix C

9

MAC Part-1

relationship with us. In this case, your account will
be designated as "advisory" and our obligation to you
as they pertain to that account will be that of an
investment advisor as described in our Form ADV
Disclosure Brochure under the section "Conducting
Business with UBS Investment Advisory and Broker-Dealer Services" and in your investment advisory program agreement and application.
If you open an investment advisory account with us,
both you and UBS Financial Services Inc. will have
the right to terminate your account from the investment advisory program. You should note that termination will end our investment advisory fiduciary
relationship with you as it pertains to that account
and, depending on the terms of your specific investment advisory agreement with us, will cause your
account to be converted to, and designated as "brokerage" account only. Your investment advisory
agreement will no longer apply to that account and it
will be governed solely by the terms and conditions of
your brokerage account agreement.
For More Information
Understanding the ways in which we can conduct
business under applicable laws and regulations is
essential to the relationship between "You and Us".
The investment advisory programs and brokerage
accounts we offer differ in other ways than those
summarized above. It is important that you carefully
read the agreements and disclosures that we provide
to you with respect to the products or services under
consideration.
While we strive to make sure the nature of our services is clear in the materials we publish. If any time
you would like clarification on the nature of your
accounts or the services you are receiving, please

Appendix C

10

MAC Part-1

speak with your Financial Advisor or call 201-3530000. For more information, please visit our web site
at www.ubs.com/workingwithus
Investment Advisory Agreement
1. SELECTION OF INVESTMENT MANAGER

The undersigned ("Client") hereby retains UBS Financial Services Inc. ("UBS Financial Services") to
provide, under the terms and conditions of this
agreement ("Agreement") as set forth below, certain
brokerage, execution and other non-advisory services.
Prior to implementation of this Agreement, Client
will have selected his own Investment Manager, who
may be selected from a list of investment managers
provided by UBS Financial Services Inc. to the Client
solely for his convenience.
Client will have no obligation to select or to use any
Investment Manager listed by UBS Financial Services Inc. However, Client understands that the
Investment Manager selected by Client must enter
into a separate agreement with UBS Financial Services Inc. regarding the brokerage and execution
services to be rendered by UBS Financial Services
Inc. and the advisory services and responsibility to
be rendered by Investment Manager. Client further
understand that Investment Manager will be solely
responsible for investing all securities and cash that
Client may from time to time deposit in the Client's
account ("Account") specifically established at UBS
Financial Services Inc. to implement this Agreement.
The Investment Manager selected by Client is
Ifign),(24,Tt
Selected Investment Style (-breBalanced Fixed Income
X Equity

Appendix C

11

MAC Part-1

If you wish to impose any restrictions on this Account including the investments that your Investment Manager may make for you, you must specify
these restrictions directly to your Investment Manager. You also acknowledge that it is your responsibility to monitor compliance with your specific investment restrictions and that neither UBS
Financial Services nor your Financial Advisor will be
under any obligation to monitor such compliance.
Purchases and sales may be made by the Investment
Manager on behalf of Client in securities of any kind,
including, but not limited to corporate common or
preferred stocks, options, warrants, rights, and corporate or government bonds or notes ("securities"),
except for mutual funds and other companies (other
than closed-end investment companies, "WEBS" and
money market funds), insurance products, limited
partnership interests, commodities and futures (collectively, "Non-covered Products"), which are expressly excluded from this Agreement and not permitted as investments in this Account. It is
understood that all or a portion of the Account may
be held in cash.
2. SERVICES OF UBS FINANCIAL SERVICES INC.
UBS Financial Services may or may not have researched the Investment Manager you selected. If we
researched the Investment Manager, we cannot assure you that we will continue our research or keep it
current. The level of research we undertake varies
depending on whether the manager is nonResearched, which includes managers in our "MAC
Reviewed" list or is in our "MAC Researched" universe. The due diligence can range from a limited
general review of the manager's organizational
structure for non-Researched managers to an indepth review of investment strategies, performance

Appendix C

12

MAC Part-1

data and management for MAC Researched managers. For non-Researched managers, our review is
limited in scope and does not provide enough information for us to express an opinion on or about the
investment capabilities of those firms.
UBS Financial Services Inc. will provide all brokerage and execution services for the purchase and sale
of securities for the Account. However, in no event
will UBS Financial Services Inc. be obligated to execute any transaction which it believes in good faith
might be in violation of applicable federal or state
law or regulations, or of applicable regulations of any
self-regulatory body of which UBS Financial Services
Inc. is a member.
UBS Financial Services Inc. will furnish Client with
confirmation of Account transactions and periodic
Account Statements.
UBS Financial Services Inc. will credit the Account
with dividends and interest paid on securities held in
the Account, and maintain custody of securities in
the Account.
It is understood that cash balances in the Client's
Account may be invested in money market funds
including, as permitted by law, those affiliated with
UBS Financial Services Inc. for which it and its affiliates receive compensation for services rendered.
UBS Financial Services Inc. recommends that you
hold only managed Eligible Securities (as defined
below) in your Account. Your Investment Manager
may effect purchases and sales on your behalf in
securities of any kind, including, but not limited to
corporate common or preferred stocks, options, warrants rights, ADRs, exchange traded funds, certain
mutual funds and corporate or government bonds or
notes (collectively "Eligible Securities"), except for

Appendix C

13

MAC Part-1

insurance products, limited partnership interests,
unit investment trusts, commodities and futures
(collectively "Ineligible Securities"), which are expressly excluded from this Agreement and not permitted as investments in the Account. The list of
Ineligible Securities may change from time to time.
To the extent you decide hold Ineligible Securities or
non-managed Eligible Securities in your Account,
you do so against our recommendation and with the
understanding that the value of those securities may
be included for purposes of calculating and reporting
the performance of your Account and calculating the
MAC Program Fee resulting in a higher fee to us and
your Investment Manager. Since Ineligible Securities
are not considered managed assets, the inclusion of
such securities may distort the actual performance of
your Account and your Investment Manager.
3. FEES

The compensation you will pay to UBS Financial
Services for services under the MAC Program ("UBS
Financial Service Portion") is payable under either a
"wrap fee" option or a commission-based option. By
executing this Agreement you acknowledge that you
have discussed the available payments options with
your Financial Advisor and have selected the wrapfee option for your Account.
Client will pay UBS Financial Services Inc. for its
services and for the services of Client's Investment
Manager (if applicable) in advance on a quarterly
basis ("Quarterly Fee") according to the fee schedule
below. The "Initial Fee" payment will be due on the
date the account is approved by UBS Financial Services Inc. and will be based on the beginning asset
value of the Account on that date. The "Initial Fee"
will be prorated from the approval date through the
end of the next full calendar quarter. Thereafter, the

Appendix C

14

MAC Part-1

"Quarter Fee" will be based on the Account asset
value on the last business day of the previous calendar quarter and will be due on the first business day
of the current quarter.
Assets received into the Account during any fee period will be charged a pro-rated fee ("Contributory
Fee") based on the number of days remaining in the
fee period. No adjustments will be made to the fee for
any withdrawals, appreciation or depreciation in the
value of securities held in the Account during any fee
period. The Investment Manager's fee (pursuant to
the terms of the investment management entered
into between the Client and the Investment Manager)
will be remitted to the Investment Manager by UBS
Financial Services Inc., if applicable. Should this
agreement be terminated by either party, a pro-rata
refund will be made, if applicable.
The following fee schedule will apply:
ANNUAL FEE: UBS FINANCIAL SERVICES INC. PORTION
Fixed
Income
Account Asset Value
Equity/Balanced
Accounts
Accounts
On the first $500,000
1.3
2.05%
0.90%
On the next $500,000
0.75%
1.3
1.50%
On the next $4,000,000
.95
0.95%
0.65%
Assets over $5,000,000
.80
0.80%
0.45%
For equity or balanced accounts, UBS Financial Services Inc. is
entitled to a minimum fee, calculated for each calendar quarter
based on an annual fee of $2,050 or 2.05%, whichever is less. For
fixed income accounts, the comparable annual fee is $900 or 0.9%,
whichever is less.
ANNUAL FEE: INVESTMENT ADVISOR PROTION
Account Asset Value
Investment Advisor Fee
On the first
500.000
On the next
500,000
On the next
4.000.000
On Assets over
5.000.000
Quarterly Minimum Fee (if applicable) $

0.5
0.5
0.5
0.5

%
%
%
%

. Appendix C

15

MAC Part-1

Please note, the account will not be accepted by UBS
Financial Services Inc. unless the above fee schedule
is completed with the client at every asset level,
regardless of the account value.
The fees will be automatically deducted from the
Client's Account unless otherwise indicated below.
For qualified plan accounts only, the client may elect
for fees to be invoiced rather than have fees automatically deducted from the account. Any outstanding
fees remaining after the invoice due will be automatically deducted from the Account. If a qualified plan
account, please indicate below what type of billing
you desire for your account. IRA accounts may not
elect the invoice feature.
Invoice
Automatic Deduction
X
The UBS Financial Services Inc. fee covers UBS
Financial Services Inc. transaction fees and custodian services. Neither the UBS Financial Services Inc.
fee nor the Investment Manager's fee includes specialized charges to your account, such as those resulting from markups or mark-downs in principal
transactions, retirement or RMA account services,
wire transfer fees, margin interest (if applicable),
exchange and SEC transaction fees and transfer
taxes. In addition, commissions incurred for transactions directed by the Investment Manager to brokerdealers other than UBS Financial Services Inc. are
not included.
4. CLIENT DESIGNATION AND AUTHORITY
If this Agreement is entered into by a corporate officer on behalf of his corporation or by Trustee or
other fiduciary, such corporate officer or Trustee or
other fiduciary represents that the Account is within
the scope of the investments authorized by, and his
power to delegate exists under, the governing in-

Appendix C

16

MAC Part-1

strument and applicable law, and that he is duly
authorized to enter into this Agreement.
If Your Account is Subject to ERISA:
You hereby designate the Investment Manager to
receive all proxy and other related materials (including offers and other corporate actions), to vote or
take any action or render any advice with respect to
the voting of proxies solicited by, or with respect to,
the issuers of any investments held in your account,
and to take or not take action on your behalf as it
deems appropriate with respect to such proxies and
related actions. You may rescind this designation by
prior written notice to UBS Financial Services Inc.
by designating these obligations to you or another
properly authorized party.
You expressly retain the right and obligation to
vote any proxies or take any action relating to the
investments held in your account and shall receive
all proxy and other related materials (including tender offers and other corporate actions). You may
delegate said rights and obligations to a properly
authorized agent upon prior written notice to UBS
Financial Services Inc.
Class action lawsuits and bankruptcy proceedings
involving an issuer whose equity or debt securities
are purchased by the Investment Manager for your
account will be your responsibility even in instances
in which you delegated proxy voting authority to the
Investment Manager. Correspondence with respect
to such lawsuits will be mailed to you directly. Neither we nor the Investment Manager will be authorized to respond to such correspondence.
4A. DATA DOWNLOADS

The Investment Manager may require that we provide certain transaction data and information (such

Appendix C

17

MAC Part-1

as name, address, and tax identification number)
about your UBS Financial services Inc. account(s) to
them via a computer system download. We understand that, they will use the data to generate certain
types of reports to analyze or otherwise reconcile
your holdings and information with their records.
By signing below, you authorize and direct UBS
Financial services Inc. to provide any and all information regarding your UBS Financial services Inc.
account(s) to them, including information relating to
transactions and holdings in your account(s) (the
"Data"). We agree to provide the Data for your account(s) listed above, subject to the following conditions.
UBS Financial Services Inc. does not assume or
bear any responsibility or liability for the Data, its
security during and after its transmission to the
above referenced entity, the completeness and accuracy of the Data, the use of that Data by the
above referenced entity or the outputs and reports
that are prepared based on that Data.
You acknowledge that the data made available to
the above referenced entity is preliminary in nature and subject to change prior to being incorporated in your transaction confirmations, account
statements and performance reports. The confirmations, statements and performance reports you
receive from us are the only official records of your
UBS Financial Services Inc. account(s). Consequently, the Data does not represent and cannot be
construed as the official records of your account(s)
with UBS Financial Services Inc. and may not be
used for trading purposes or relied upon in making
an investment or liquidation decision.

Appendix C

18

MAC Part-1

You agree to hold UBS Financial Services Inc.
harmless from any loss or damages incurred as a
result of the data transmission and the use of such
Data 9 (for any purpose) by the above referenced
entity including the sharing of such Data with
others by them.
Please note that pricing differences may exist if prices are changed on our books and records after the
data is transmitted to the above referenced entity.
Differences may exist for a verity of reasons including skipped or unprocessed data, trade cancellation,
or missing information. The above referenced entity
will be responsible for any reconciliation needed in
their reports.
You may revoke this authorization at any time by
providing written notice to your Financial Advisor
and the Branch Office Manager. Termination of data
sharing will be effective within 5 business days of the
date we receive your new instructions. Please note
that UBS Financial Services Inc. has the right to
terminate the transmission of Data at any time and
is not obligated by rule or regulation to continue to
supply this information to the above referenced entity.
5. OTHER SERVICES PROVIDED

You will be sent confirmations of transactions in
your account and monthly statements.
X Check this box to elect to receive your confirmations monthly. Doing so will waive your right to receive immediate trade confirmations for your account
and will instruct UBS Financial Services Inc. to send
trade confirmations to your MAC Manager. You may
change this instruction at any time by giving UBS
Financial Services Inc. written notice.

Appendix C

19

MAC Part-1

NON-ASSIGNABILITY

This Agreement shall not be assignable by either
Client or UBS Financial Services Inc. without the
prior consent of the other party.
TERMINATION OF AGREEMENT

This Agreement is a continuing one and shall remain
in full force and effect until terminated by UBS Financial Services Inc. or by the Client or his legal
representative(s). This Agreement may be terminated upon written notice by UBS Financial Services
Inc. or Client to the other party at the addresses
listed below, and termination will become effective
upon receipt of such notice. In addition, this agreement will terminate if UBS Financial Services Inc.
receives instructions to deliver the assets in this
account to another firm and termination will become
effective upon receipt of said instructions. Termination of this Agreement will not relieve Client of the
responsibility for any obligations to UBS Financial
Services Inc. arising before such termination and
Client agrees to pay in full all amounts owing to UBS
Financial Services Inc. Upon any termination, Client
authorizes UBS Financial Services Inc. to withhold
sufficient assets then in the Account as UBS Financial Services reasonably believes necessary to pay
any amounts owing UBS Financial Services Inc.
however and whenever arising Client agrees to pay
UBS Financial Services Inc. the reasonable costs and
expenses of collection, including attorney's fees for
any unpaid debts. The Client may terminate this
Agreement within five business days of its signing
and receive a full refund all "wrap fees".
This Agreement shall insure to the benefit of any
successor corporation of UBS Financial Services Inc.
and shall be binding on the heirs, executors and legal
representative of the Client. If, in the event of the

Appendix C

20

MAC Part-1

death, disability or incompetence of the Client, UBS
Financial Services Inc. or Investment Manager in
good faith and without actual notice, act under this
authorization, any and all actions so taken shall be
binding on Client's heirs and legal representatives.
You should note that termination will end our investment advisory fiduciary relationship with you as
it pertains to that account and, will cause your account to be converted to and designated as a "brokerage" account only. Your investment advisory agreement will no longer apply to that account and it will
be governed solely by the terms and conditions of
your brokerage account agreement.
LIABILITY OF UBS FINANCIAL SERVICES INC.

Client acknowledges that the selection of the Investment Manager was his sole and exclusive responsibility. UBS Financial Services Inc. shall not be
liable for and Client agrees to hold UBS Financial
Services Inc. harmless against all losses to the Client
from any error of judgment, mistake of law, negligence, willful misfeasance, or bad faith on the part of
the Investment Manager or any other matter within
the Investment Manager's control such as investment performance or compliance with applicable law.
GOVERNING LAW

This Agreement and enforcement shall be construed
and governed by the law of the State of New York.
ARBITRATION

This agreement contains a predispute arbitration
clause. By signing an arbitration agreement the
parties agree as follows:
Arbitration is final and binding on the parties. All
parties to this agreement are giving up the right to
sue each other in court, including the right to a tri-

Appendix C

21

MAC Part-1

al by jury, except as provided by the rules of the
arbitration forum in which a claim is filed.
The parties are waiving their right to seek remedies in court, including the right to jury trial. Arbitration awards are generally final and binding; a
party's ability to have a court reverse or modify an
arbitration award is very limited.
Pre-arbitration discovery is generally more limited
than and different from court proceedings. The
ability of the parties to obtain documents, witness
statements and other discovery is generally more
limited in arbitration than in court proceedings.
The arbitrator's award is not required to include
factual findings or legal reasoning and any party's
right to appeal or to seek modification of rulings by
the arbitrators is strictly limited. The arbitrators
do not have to explain the reason(s) for their award.
The panel of arbitrators will typically include a
minority of arbitrators who were or are affiliated
with the securities industry.
The rules of some arbitration forums may impose
time limits for bringing a claim in arbitration. In
some cases, a claim that is ineligible for arbitration
may be brought in court.
This rules of the arbitration forum in which the
claim is filed, and any amendments thereto, shall
be incorporated into this agreement.
Client agrees, and by carrying an account for you
UBS Financial Services Inc. agrees, that any and
all controversies which may arise between you and
UBS Financial Services Inc. concerning any account(s), transaction, dispute or the construction,
performance, or breach of this or any other Agreement, whether entered into prior, on or subsequent
to the date hereof, shall be determined by arbitra-

Appendix C

22

MAC Part-1

tion. Any arbitration under this Agreement shall
be held under and pursuant to and be governed by
the Federal Arbitration Act, and shall be conducted
before an arbitration panel convened by the New
York Stock Exchange, Inc. or the National Association of Securities Dealers, Inc. Client may also select any other national security exchange's arbitration forum upon which UBS Financial Services Inc.
is legally required to arbitrate the controversy with
Client, including, where applicable, the Municipal
Securities Rulemaking Board. Such arbitration
shall be governed by the rules of the organization
convening the panel. Client may elect in the first
instance the arbitration forum, but if Client fails to
make such election, by registered letter or telegram addressed to UBS Financial Services Inc. at
1200 Harbor Boulevard, 10th Floor, Weehawken,
NJ 07086, Attn: Legal Department, before the expiration of five days (5) after receipt of a written
request from UBS Financial Services Inc. to make
such election, then UBS Financial Services Inc.
may make such election. The award of the arbitrators, or of the majority of them, shall be final, and
judgment upon the award rendered may be entered
in any court of competent jurisdiction.
No person shall bring a putative or certified class
action to arbitration, nor seek to enforce any predispute arbitration Agreement against any person
who has initiated in court a putative class action;
who is a member of the putative class who has opted out of the class with respect to any claims encompasses by the putative class action until:
the class certification is denied;
the class is decertified; or
the customer is excluded from the class by the
court.

Appendix C

23

MAC Part-1

Such forbearance to enforce an Agreement to arbitrate shall not constitute a waiver of any rights
under this Agreement except to the extent stated
herein.
Clint expressly agrees that service of process in
any action shall be sufficient if served by certified
mail, return receipt requested, at your last address
known to UBS Financial Services Inc.
Client expressly waives any defense to service of
process as set forth above.
ENTIRE AGREEMENT

This Agreement represents the entire understanding
between the parties with regard to the matters specified herein. The terms of this agreement may be
modified subject to your receipt of prior written notice and your continued acceptance of services thereafter shall be deemed consent. Client expressly
agrees that UBS Financial Services Inc. shall not be
bound by any representation or agreement heretofore,
hereafter made by any of its employees or agents
which in any way purports to affect or diminish its
rights under this Agreement.
MISCELLANEOUS

For the purpose of referring to this Agreement,
the date of this Agreement shall be the date of acceptance by UBS Financial Services Inc. As used
herein, references to persons in the masculine gender
shall include persons of the feminine gender. References in the singular shall, as and if appropriate,
include the plural.
BY SIGNING THIS AGREEMENT THE CLIENT
ACKNOWLEDGES: THAT I HAVE REVIEWED THE
SECTION ENTITLED CONDUCTING BUSINESS WHIH UBS:
GUIDE TO INVESTMENT ADVISORY AND BROKER
DEALER SERVICES AND UNDERSTAND THE MATERIAL

Appendix C

24

MAC Part-1

DISTINCTIONS BETWEEN ADVISORY AND BROKERDEALER SERVICES; RECEIPT OF A COPY OF THIS
AGREEMENT AND UBS FINANCIAL SERVICES INC.'S
FORM ADV DISCLOSURE DOCUMENT; THIS AGREEMENT
CONTAINS A PRE-DISPUTE ARBITRATION CLAUSE AT
PARAGRAPH 10 ABOVE.

Agreed to this 17113 day of JUN(
j nrW
Client Name
Signature of Client

20

07

UBS Iwc

MAC Part-2

25

Appendix C

MICROFILM I.D.

UBS Financial Services Inc.

NUMBER
FULL ACCOUNT BRANCH ACCOUNT BROKER

Darru K. Hsu
and Gina T. Hsu
Living Trust

OA

33042

SOCIAL
SECURITY/TAX N

NUMBER

NAME

N8

[omitted]

Managed Accounts Consulting
Wrap Fee Services Agreement (Investment Manager)

Account Type: Advisory
•
The undersigned investment advisor ("Advisor")
hereby agrees, under the terms and conditions herein, to perform the investment advisory services set
forth below for certain clients ("Clients") of UBS
Financial Services Inc. ("UBS Financial Services")
who are enrolled in the account ("Account") established with UBS Financial Services Inc. pursuant to
which the Client has selected Advisor to provide all
investment advisory services and by which UBS
Financial Services Inc. provides certain brokerage
services pursuant to a Wrap Fee Services Agreement.
INVESTMENT MANAGEMENT

The Advisor agrees to invest, in accordance with the
investment objectives of each client, all securities
and cash that each such Client may from time to
time deposit in the Client's Account at UBS Financial Services Inc.
COMPENSATION

UBS Financial Services Inc. as agent for Client, will
forward the fee owed to the Advisor by Client according to the schedule below, if applicable.
ADVISOR FEE SCHEDULE
Account Asset Value Annualized Fee
.5 %
On the first $ 500.000
.5 %
On the next $ 500.000

Appendix C

26

MAC Part-2

On the next $ 4,000,000
.5 %
On assets over $ 5,000,000
.5 %
.00 Quarterly Minimum (if applicable)

The above fees will be calculated by UBS Financial
Services Inc. and will be based on the Account's asset
value, payable in quarterly installments ("Quarterly
Fee"). The initial fee ("Initial Fee") will be based on
the beginning asset value of the Account on the day
the account is approved by UBS Financial Services
Inc. The "Initial Fee" will be prorated from the approval date through the end of the next full quarter.
Thereafter, the "Quarterly Fee" will be based on the
Account asset value on the last business day of the
previous calendar quarter. Assets received into the
Account during any fee period will be charged a prorated fee ("Contribution Fee") based on the number
of days remaining in the fee period. No adjustments
will be made to the fee for any withdrawals, appreciation, or depreciation in the value of the securities
held in the Account during any fee period.
Should this agreement be terminated by either party,
a prorated refund of the "Initial Fee" or "Quarterly
Fee" and any "Contribution Fees" will be made, if
applicable.
The fees will be automatically deducted from the
Client's Account unless the account is an ERISA
account and the client elects to be invoiced. Any
outstanding fees remaining after the invoice due will
be automatically deducted from the Account. The
Investment Advisor will not receive payment from
UBS Financial services Inc. until the fee is either
remitted by the client or debited from the Account.
3.

REPRESENTATION OF THE ADVISOR

Advisor represents to UBS Financial Services Inc. as
follows:

Appendix C

27

MAC Part-2

Advisor has written agreements with each
Client granting Advisor discretion in the investment and reinvestment of the Client's Account's
assets and authorizing Advisor to purchase and
sell securities for Client's Account and to act for
the Client in all matters necessary or incidental to
such purchases and sales. Advisor will provide
UBS Financial Services Inc. with copies of all such
written agreements.
Advisor is currently registered and will remain registered to the extent required as an investment advisor under the Advisers Act of 1940
and will operate in full compliance with the applicable laws and regulations in all applicable jurisdictions.
Advisor agrees that UBS Financial Services Inc.
shall not be responsible for and holds UBS Financial
Services Inc. harmless against any losses to the client from any error of judgment, mistake of law, negligence, willful misfeasance, or bad faith on the part
of the advisor or any other matter within the Advisor's control.
4. ANTI-MONEY LAUNDERING AND REPORTING
RESPONSIBILITIES

The Advisor is, and at all times while this agreement
is in force, in compliance with all legal and regulatory requirements referred to in this Section. To the
extent that the Advisor accepts all funds directly
from the Client, the Advisor represents that it is
aware of and in compliance with the United States
and applicable international laws and regulations
relating to currency reporting and money laundering,
including, but not limited to (i) the United States
Bank Secrecy Act and implementing regulations, and
all applicable international anti-money laundering
laws and regulations and to ensure compliance with-

Appendix C

28

MAC Part-2

in the MAC program with these laws, rules and regulations, the Advisor represents that it will not accept
currency or bearer instruments from its clients. The
Advisor also represents that it will adopt appropriate
policies, procedures and internal controls to be fully
compliant with any additional laws, rules or regulations, to which it may become subject.
The Advisor is aware of and complies with the United States regulations imposed by the Treasury Department's Office of Foreign Assets Control ("OFAC")
including but not limited to the International Emergency Economic Powers Act, 50 U.S.C. section 1701
et. seq., The Trading with the Enemy Act, 50 U.S.C.
App. 1 et seq., and any Executive Orders or regulations promulgated thereunder, which prohibit,
among other things, the engagement in transactions
with, holding the securities of, and the provision of
services to certain embargoed foreign countries and
specifically designated nationals, specifically designated narcotics traffickers, terrorist sanctions, and
other blocked parties. The Advisor further represents
that to the best of its knowledge any entity or individual with which it transacts business is (1) not
currently identified on the Specially Designated
Nationals and Blocked Persons List maintained by
the Office of Foreign Assets Control, Department of
the Treasury ("OFAC") and/or on any other similar
list maintained by OFAC pursuant to any authorizing statute, executive order or regulation (collectively,
the "List"), and (ii) not a person or entity with whom
a citizen if the United States is prohibited to engage
in transactions by any trade embargo, economic
sanction, or other prohibition of United States law,
regulation, or Executive Order of the President of the
United States, and (iii) none of the assets of the Advisor have been derived from any unlawful activity,

Appendix C

29

MAC Part-2

and (iv) the Advisor has implemented procedures,
and will consistently apply those procedures, to ensure the foregoing representations and warranties
remain true and correct at all times.
TERMINATION OF AGREEMENT

This Agreement is to be terminated upon written
notice by either Advisor or UBS Financial Services.
Inc. to the other at the addresses listed below. •
Termination will become effective upon receipt of
such notice. UBS Financial Services Inc. and Advisor
agree to inform each other promptly in the event of a
change in the name or address to which notification
must be sent.
NON ASSIGNABILITY

This Agreement shall not be assignable by either
UBS Financial Services Inc. or the Advisor.
GOVERNING LAW

This agreement and its enforcement shall be construed and governed by the laws of the State of New
York.
ENTIRE AGREEMENT

This Agreement represents the entire Agreement
between the parties with regard to the matters specified herein and may not be modified or amended
except by a writing signed by both parties. Advisor
expressly agrees that UBS Financial Services Inc.
shall not be bound by any representation or agreement heretofore or hereafter made by any of its employees or agents which in any way purported to
affect or diminish its rights under the Agreement.
MISCELLANEOUS

UBS Financial Services Inc. reserves the right in its
sole discretion and for any reason to cancel this
agreement at any time.

Appendix D

30 .

Notice of Appeal

3:11-cv-02076-WHA Document 102-1 Filed 09/16/19
Lead-plaintiff DARRU K. HSU, et al., files the
Notice of Appeal for direct review on the exculpatory
hedge clauses in the UBS wrap-fee contract prohibited by SEC Heitman No Action Letter under the Investment Advisers Act (IAA).
Supreme Court Rule 18 applies to this very rare
occasion: The falsified evidence for FRCP 12(b)(6)
defense voided 28 U.S.C. § 1331, but the district
judge eliminated evidence in the complaint to impede
interlocutory review on FRCP 23(f) certification. The
9th Circuit is deprived of 28 U.S.C. §1291 and
§1292(a)(1) jurisdiction. (11-17131, 14-15588, 1915745) Jurisdictional defect is not subject to waiver
or forfeiture and may be raised at any time in the
court of first instance and on direct appeal. See
Hamer v. Neighborhood Housing Services of Chicago,
583 U.S.
(2017) Notice of direct appeal does not
exist in ECF system for Rule 18, except Manual
Filing Notification.
hap s://www. c and.0 scourts .gov/ecf/p aper
Historically, Judicial Code of 1925 and 1948 maintained direct appeal in Section 238 for Section 2 of
the Expediting Act of 1903 on "antitrust or interstate
commerce laws, and so forth".1 "Interstate commerce"
corresponds to Commerce Clause of the Constitution.
It is in 15 U.S.C. §80b-1, 18 U.S.C. §§ 1961-68 and 18
U.S.C. § 1956. Section 238(a) for the Transfer Act2

1 See

https://www.loc.gov/law/heln/statutes-at-large/68thcongress/session-2/c68s2ch229.pdf
2 See https://www.loc.gov/law/help/statutes-at-large/67thcongress/Session%202/c67s2ch305.ndf and Swift & Co. v. United States, 276 U.S. 311, at 323 (1928)

Appendix D

31

Notice of Appeal

prohibits the Circuit's dismissal without transferring
jurisdiction to the Supreme Court on the government
authority over the above regulations. The 1st Circuit
declined jurisdiction based on the Expediting Act,3
but the 3rd Circuit did not. 4 Yet, the 9th Circuit
dismissed the appeal with its jurisdiction voided by
Defendant. (9th Cir. 19-15756, Dkt. 12) This Court
applied "practical effects" rule to §1253 and the exception in §1292(a)(1) for direct review on permanent
(2018);
injunction. See Abbott v. Perez, 585 US
Carson v. American Brands, Inc., 450 U.S. 79, 83
(1981).
28 U.S.C. §2106 enables the Court to determine the
harmful defense which stripped away the regulatory
context of a signed document and faked it as "separate agreement". 17 CFR 275.206(4)-7 imposes the
burden on UBS for its representation. Authorizing
ECF filing for pro se lead-plaintiff will aid the Court.
Plaintiff filed a Motion for Reconsideration on the
Rule 60(b)(4) motion and requested for declining
jurisdiction. (19-15756, Dkt. 13-1, dated August 12,
2019). It is uncertain that an amended decision is
forthcoming, as the Circuit cast aside the prior appeal for two and half years. (14-15588, Dkt. 28-1,
12/22/2016)
Dated: September 15, 2019
Respectfully submitted,
S/ Darru K. Hsu
DARRU K. HSU, pro se
408-270-6139

3
4

United States v. Cities Svc. Co.,410 F.2d 662, 1st Cir. (1969)
United States v. Ingersoll-Rand Co., 320 F.2d 509

Appendix D

32

Notice of Appeal

U.S. District Court; California Northern District
Notice of Electronic Filing
The following transaction was entered on 9/16/2019
at 11:16 AM and filed on 9/16/2019
Hsu v. UBS Financial Services, Inc.
Case Name:
Case Number: 3:11-cv-02076-WHA
Filer:
Darru K Hsu
Document Number: 102
Docket Text:
EXHIBITS Notice of direct appeal to the Supreme
Court filed by Darru K Hsu (Attachments: # (1) Notice of direct appeal)(Hsu, Darru) (Filed on 9/16/2019)
3:11-cv-02076-WHA Notice has been electronically
mailed to:
Ashley Lynn Shively ashley.shively@hklaw.com,
tanya.boyce@hklaw.com
Darru K Hsu

Khsu 01@sbcglobal.net

David Carlyle Powell

dpowell@mcguirewoods.com,
jtabisaura@mcguirewoods.com,
mdylak@mcguirewoods.com,
usdocket@mcguirewoods.com
dmeyer@dmlaws.com,
sceli@dmlaws.corn

David P. Meyer

Justin Edward McGuirk jmcguirk@reedsmith.com,
ahenderson@reedsmith.com,april-henderson6614@ecfp acerpro com,justin-mcguirk6838@ecfp acerpro. corn, mrachel@reeds mith. com,
reed-smith-2312@ecf.pacerpro.com

33

Appendix E

Supreme Court of the United States
Office of the Clerk, Washington, DC 20543
September 20, 2019
Darru K. Hsu
5538 Morningside Drive
San Jose, CA 95138
RE: Darru K. Hsu
Dear Mr. Hsu:
The papers were received on September 20, 2019.
These papers fail to comply with the Rules of this
Court and are herewith returned.
You may seek review of a decision only by filing a
timely petition for writ of certiorari. The papers you
submitted are not construed to be a petition for writ
of certiorari. Should you choose to file a petition for
writ of certiorari, you must submit the petition within the 90 day time limit allowed under Rule 13 of the
Rules of this Court. A Copy of the Rules of this Court
and a sample petition for a writ of certiorari are
enclosed.
Your case must first be reviewed by a United States
court of appeals or by the highest state court in
which a decision could be had. 28 USC 1254 and
1257.
Sincerely,
Scott S. Harris, Clerk
BY: Clayton R. Higgins,
(202) 479-3019

34

Appendix E

Supreme Court of the United States
Office of the Clerk, Washington, DC 20543
November 7, 2019
Darru K. Hsu
5538 Morningside Drive
San Jose, CA 95138
RE: Darru K. Hsu
Dear Mr. Hsu:
The notice of appeal received November 7, 2019 is
herewith returned.
You may seek review of a decision only by filing a
timely petition for a writ of certiorari. The filing of a
notice of appeal is not a prerequisite for filing a petition for writ of certiorari and does not preserve the
time for filing a petition for writ of certiorari. You
must submit a petition for writ of certiorari within
the 90 day time limit pursuant to Rule 13. A copy of
the Rules of this Court and a sample petition are
enclosed.
Your case must first be reviewed by a United States
court of appeals or by the highest state court in
which a decision could be had. 28 USC 1254 and
1257.
It appears that you have a final order from the U.S.
Court of Appeals for the Ninth Circuit.
Also enclosed is your check for $300.00.
Sincerely,
Scott S. Harris, Clerk
By: /Clayton R. Higgins,
(202) 479-3019

Appendix E

35

USPS Tracking
Tracking Number: 70190700000011594666
The delivery status of your item has not been updated as of November 9, 2019, 11:00 pm. We apologize
that it may arrive later than expected.

Alert

Status

November 9, 2019 at 11:00 pm
Awaiting Delivery Scan
November 5, 2019, 9:18 am
Notice Left (No Authorized Recipient Available)
SAN FRANCISCO, CA 94105

0 7000000 1159 46612

U.S. Postal Service'

CERTIFIED MAII23' RECEIPT
ofimpstic AN/ owl,
I-41f dotivcry tr1Isrritai
vrsil our ebs ;le at
•-"1 K`, r Na
'

Certffied Piltall7se

ep3ps.

t'.10

rMitI-eua (Meek
DBoum Raccipl ppoctoreh
0Rohm!' Ringo ~tato
a
pews:vs hes Pastricribl Deetery
DWIaged me RamPed

a

atak famita• Narkuseaspay

"08

$7:35

tihr"Stapi *Pdtrit p

rr

65

To

e-g

N
'01V

Nor
A

PS Pornv ;011110,

-4.4m1.4.12:E0_,*L
A

.

,.,e;1;14_,,!. .R.n.. 14:4 e

14: rri.t:e

14.7,r I

rt.] t i re

